     Department of Homeland Security

     ��������������������������


   DHS Uses Social Media To Enhance Information 

   Sharing and Mission Operations, But Additional 

        Oversight and Guidance Are Needed





OIG-13-115                             September 2013

                         OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov
       
                                 September
                                          5, 2013
  
MEMORANDUM FOR:	            Clark W. Stevens  

                            Assistant Secretary  

                            Office of Public Affairs 

 
FROM: 	                     Frank Deffer 

                            Assistant Inspector General 

                            Office of Information Technology Audits 

 
SUBJECT:	                   DHS Uses Social Media To Enhance Information Sharing and 
                            Mission Operations, But Additional Oversight and Guidance 
                            Are Needed   
    
Attached for your information is our final report, DHS Uses Social Media To Enhance 
Information Sharing and Mission Operations, But Additional Oversight and Guidance Are 
Needed.  We incorporated the formal comments from the Department in the final report.  
 
The report contains five recommendations aimed at improving the effectiveness of the use 
of Web 2.0 technology.  The Department concurred with recommendations 1 and 3, but did 
not concur with recommendations 2, 4, and 5.  As prescribed by the Department of 
Homeland Security Directive 077‐01, Follow‐Up and Resolutions for Office of Inspector 
General Report Recommendations, within 90 days of the date of this memorandum, please 
provide our office with a written response that includes your (1) agreement or 
disagreement, (2) corrective action plan, and (3) target completion date for each 
recommendation.  Also, please include responsible parties and any other supporting 
documentation necessary to inform us about the current status of the recommendation.   
 
Once the Department has fully implemented the recommendations, please submit a formal 
closeout request to us within 30 days so that we may close the recommendations.  The 
request should be accompanied by evidence of completion of agreed‐upon corrective 
actions.   
 
Please email a signed PDF copy of all responses and closeout requests to 
OIGITAuditsFollowup@oig.dhs.gov.  Until your response is received and evaluated, the 
recommendations will be considered open and unresolved.  We will post the report on our 
website for public dissemination.      
 
Please call me with any questions, or your staff may contact Richard Harsche, Director, 
Information Management Division, at (202) 254‐5448. 
 
Attachment
                                                                                          
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................... 8


           DHS Uses Social Media Effectively for Public Outreach ......................................... 8


           DHS Recognizes Value in Using Social Media To Enhance Mission Operations But

           Additional Oversight and Guidance Are Needed ................................................. 12


           Improvements Are Needed For Centralized Oversight and Coordination ........... 16


           Recommendations ................................................................................................ 19


           Management Comments and OIG Analysis .......................................................... 19



Appendixes
           Appendix A:          Objectives, Scope, and Methodology ............................................ 25

           Appendix B:          Management Comments to the Draft Report ............................... 27

           Appendix C:          Major Contributors to This Report ................................................ 34

           Appendix D:          Report Distribution ........................................................................ 35


Abbreviations
           CBP                   U.S. Customs and Border Protection
           DHS                   Department of Homeland Security
           CISO                  Chief Information Security Officer
           FEMA                  Federal Emergency Management Agency
           ICE                   Immigration and Customs Enforcement
           GAO                   Government Accountability Office
           NIST                  National Institute of Standards and Technology
           NOC                   National Operations Center
           OCIO                  Office of the Chief Information Officer
           OIG                   Office of Inspector General
           OMB                   Office of Management and Budget
           OPA                   Office of Public Affairs


www.oig.dhs.gov                                                                                                        OIG-13-115
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


       PIA        Privacy Impact Assessment
       PII        Personally Identifiable Information
       PTA        Privacy Threshold Analysis
       TSA        Transportation Security Administration
       USCG       U.S. Coast Guard
       USCIS      U.S. Citizenship and Immigration Services
       USSS       U.S. Secret Service




www.oig.dhs.gov                                               OIG-13-115
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security




Executive Summary
We audited the Department of Homeland Security’s (DHS) efforts to implement Web 2.0
technology, also known as social media. The objective of our audit was to determine the
effectiveness of DHS’ and its components’ use of Web 2.0 technologies to facilitate
information sharing and enhance mission operations. The scope and methodology of this
audit are discussed further in appendix A.

Although DHS prohibits social media access to employees using a government-issued
electronic device or computer unless a waiver or exception is granted, the Department has
steadily increased its use of various social media sites over the past 5 years. Specifically, the
Department and each of its seven operational components have established accounts on
commonly used social media sites, such as Twitter, Facebook, blog sites, and YouTube, for
outreach purposes. Public affairs employees have had wide success using these sites to
share information and conduct public outreach efforts. These initiatives were effectively
managed and administered by Department and component level public affairs offices. In
addition, component public affairs offices have implemented policies and procedures to
provide guidance to employees.

DHS and its operational components have recognized the value of using social media to gain
situational awareness and support mission operations, including law enforcement and
intelligence-gathering efforts. However, additional oversight and guidance are needed to
ensure that employees use technologies appropriately. In addition, improvements are
needed for centralized oversight to ensure that leadership is aware of how social media are
being used and for better coordination to share best practices. Until improvements are
made, the Department is hindered in its ability to assess all the benefits and risks of using
social media to support mission operations.

We are recommending that the Department communicate the process to gain access to
social media; establish a list of approved social media accounts used throughout the
Department; complete the Department-wide social media policy to provide legal, privacy,
and information security guidelines for the approved uses of social media; ensure that
components develop and implement social media policies; and establish a forum for the
Department and its components to collaborate and make decisions on the use of social
media tools.




www.oig.dhs.gov                               1                                    OIG-13-115
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Background
The Homeland Security Act of 2002 established the Department and its primary
missions, which include preventing terrorist attacks within the United States; enforcing
and administering the immigration laws of the United States- securing the nation’s
borders- and ensuring the nation’s resilience to disasters. To support its mission
operations, DHS relies on a vast array of information technology, including Internet-
based services using Web 2.0 technologies.

Web 2.0 technologies, the second generation of the World Wide Web, provide a
platform for Web-based communities of interest, collaboration, and interactive services.
These technologies include Web logs, known as blogs, which allow individuals to post
and respond to information. Additionally, Web 2.0 technologies include third-party
social media websites that allow individuals or groups to create, organize, edit,
comment on, and share information. DHS has defined social media as websites,
applications, and Web-based tools that connect users to engage in dialogue, share
information, collaborate, and interact.1 Social media take many different forms,
including Web-based communities, social networking sites, and video and photo sharing
sites. Some commonly known social media providers include Facebook, Twitter, and
YouTube.

        Facebook is a social media website that allows users to create personal profiles
        and to locate and connect with other Facebook users. Users can also establish a
        page to represent a business, public figure, or organization. These pages are
        used to disseminate information and provide users a structure to post their
        responses. In September 2012, Facebook reportedly had more than 1 billion
        active users.

        Twitter is a social networking site that allows users to share and receive
        information through short messages limited to 140 characters in length, known
        as “tweets.” Twitter users can establish accounts, post messages to their profile
        page, and reply to other users’ tweets. In December 2012, Twitter reported
        having 200 million registered accounts.

        YouTube is a video-sharing site that allows users to watch, add, comment on,
        and share videos. Users can establish accounts on YouTube by providing a small
        amount of personal information. More than 800 million unique users visit the
        site, and more than 4 billion hours of video are watched each month.


1
 Department of Homeland Security Instruction 110-01-001, Privacy Policy for Operational Use of Social
Media, June 8, 2012.


www.oig.dhs.gov                                    2                                         OIG-13-115
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


The popularity of Web 2.0 technologies continues to grow. In 2011, nearly four in five
active Internet users visited social media websites and blogs, and Americans spent more
time on Facebook than any other website.2 The Nielsen Company reported that, in July
2011, Americans spent more than 88 billion minutes on social media sites, and that
number increased to more than 121 billion minutes in July 2012.3 The use of social
networking services now reportedly exceeds Web-based e-mail usage, and the number
of American users frequenting online video sites has more than tripled since 2003.
Overall, as of 2011, Americans spent 23 percent of their time online visiting blogs and
social media websites.

Federal Guidance for Open Government

President Barack Obama endorsed the use of Web 2.0 technologies by Federal agencies
in a 2009 memorandum promoting transparency and open government. 4 In this
memorandum, Federal agencies were encouraged to use new technologies to put
information about their operations online so that it would be more accessible to the
public. Agencies were also encouraged to solicit public comments by providing
opportunities for the public to contribute ideas and expertise through collaboration.

The President called on the Office of Management and Budget (OMB) to issue guidance
for increasing government transparency and collaboration. In response, OMB has
issued a number of guidance documents, including:

         Social Media, Web-Based Interactive Technologies, and the Paperwork Reduction
         Act, issued April 7, 2010, which explains when and how the Paperwork Reduction
         Act of 1995 applies to social media. 5
         Guidance for Online Use of Web Measurement and Customization Technologies,
         issued June 25, 2010, which explains how Federal agencies can use Web
         measurement and customization technologies to better serve the public while
         still safeguarding privacy. 6
         Guidance for Agency Use of Third-party Websites and Applications, issued June
         25, 2010, which states that the use of Web 2.0 technologies requires vigilance to

2
  A blog is a website that consists of a series of entries arranged in reverse chronological order, updated

frequently with new information about particular topics. It often contains the writer’s own personal 

experiences, opinions, and observations, or those of guest writers.

3
  The Nielsen Company provides information and measurement that enable companies to understand

consumers and consumers’ behaviors.

4
  President Barack Obama, Memorandum on Transparency and Open Government, January 21, 2009.

5
  OMB Memorandum, Social Media, Web-Based Interactive Technologies, and the Paperwork Reduction

Act, April 7, 2010.

6
  OMB M-10-22, Guidance for Online Use of Web Measurement and Customization Technologies, June 25,

2010.



www.oig.dhs.gov                                      3                                          OIG-13-115
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


        protect individual privacy and provides guidance to agencies to protect privacy
        when using social media websites.7

Federal agencies are increasingly using Web 2.0 technologies, such as social media
websites, to share information, collaborate with the public, and increase transparency.
As of May 2012, all 24 major Federal agencies had established a social media presence.
For example, the National Aeronautics and Space Administration had as many as 3.3
million followers on Twitter. DHS activated a Twitter account in 2010 and, by November
2012, had 118,977 Twitter followers and had issued 2,796 tweets.

While the use of social media technologies can effectively engage the public and
increase citizen involvement in government efforts, these technologies can also pose
challenges in protecting personal information and ensuring the security of information
systems.

Determining how the Privacy Act of 1974, as amended, applies to departmental use of
social media requires careful evaluation.8 This Act protects personally identifiable
information (PII) by ensuring that Federal agencies collect only necessary and relevant
information to an agency’s function, and that the information is maintained in a manner
that protects an individual’s privacy. Examples of PII include name, date of birth, Social
Security number, and any other unique information that could identify an individual.
Because of the interactive nature of social media technologies, OMB requires that, in
addition to following existing OMB guidance and privacy laws such as the Privacy Act,
Federal agencies must have transparent privacy policies, provide notice for external
website links, and conduct analysis of the privacy implications whenever they use third-
party technologies to engage with the public.9 For example, OMB states that an agency
should post a privacy notice on a third-party website it uses to indicate whether and
how the agency will maintain, use, or share PII. Agencies should also only collect the
minimum necessary PII to perform their purpose or functions.

The rapid development of social media technologies presents challenges to keep up
with evolving threats, such as unauthorized individuals gaining access to the enterprise
network and identity theft. For example, the DHS Office of the Chief Information Officer
(OCIO) reported that the use of these Internet-based technologies increases the risk of a
malware infiltration, which may harm government systems or networks.10 The
Department conducted a risk assessment in 2012 and identified additional risks
associated with employee use of social media technology, which cannot be monitored



7
  OMB M-10-23, Guidance for Agency Use of Third-Party Websites and Applications, June 25, 2010. 

8
   5 U.S.C. § 552a.

9
  OMB M-10-23, Guidance for Agency Use of Third-Party Websites and Applications, June 25, 2010.

10
   Malware is malicious software meant to interfere with or damage a computer or computer system.



www.oig.dhs.gov                                   4                                        OIG-13-115
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


by traditional methods.11 The assessment also identified potential risks of security
breaches, such as data spillage, reputation erosion, and loss of time and resources.

Organizational Structure for Department-Wide Management of Social Media

To address these risks, DHS has established an organizational structure to manage its
Department-wide use of social media.12 Four DHS offices share this responsibility. For
the use of social media for outreach purposes, the DHS Office of Public Affairs (OPA)
serves as the primary account holder for all DHS and component social media websites
and ensures that posted content meets the appropriate requirements for publicly
available information. The DHS Privacy Office is responsible for ensuring that DHS use
of social media is compliant with privacy laws, while component level privacy offices are
responsible for ensuring the implementation of DHS’ privacy policies. The DHS OCIO is
responsible for providing overall policy implementation and procedural guidance for the
Web and associated systems, and ensuring adherence to policies, laws, regulations, and
guidance, including those that are related to accessibility, privacy, and security. The
Office of General Counsel provides legal advice and guidance on the Department’s use
of social media to all DHS components, including the DHS Privacy Office and component
privacy offices. Figure 1 shows these four offices within the DHS organization.




                          Figure 1. DHS Organization Chart as of 2012
                (*The Management Directorate has six offices, including the Department’s
                              Office of the Chief Information Officer)



11
   DHS Office of the Chief Information Security Officer, Social Media Risk Assessment Report, May 15,

2012.

12
   DHS Office of Inspector General (OIG) follows its own social media procedures and relies on its own

attorneys, privacy officer, information security personnel, etc.



www.oig.dhs.gov                                     5                                          OIG-13-115
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


The Department Grants Access to Social Media Websites on a Limited Basis

The Department is responsible for ensuring that employees who use social media are in
compliance with Federal and departmental requirements for security of information
systems. For example, the Federal Information Security Management Act of 2002, as
amended, assigns agencies the responsibility for the security of information collected or
maintained on their behalf and for information systems used or operated on their
behalf.13 Additionally, in 2009, the National Institute of Standards and Technology
(NIST) issued guidance directing agencies to identify security controls for information
systems for internal and third-party systems.14 According to the guidance, the use of a
risk-based approach is important when an agency is using technology for which its
ability to establish security controls may be limited, such as when using a third-party
social media service.

To limit its risk, DHS blocks social media sites from Department employees and
contractors unless access approval is granted for official work purposes. DHS
established a process in 2012 to grant access to employees whose job functions require
the use of specific social media websites.15 These employees must complete and submit
a “Secure Internet Gateway” request to their component Security Operations Center.
This request must include a business justification explaining the need to access specific
blocked sites for work purposes. Component OCIO officials review the requests for
technical accuracy and to validate that the business justification is in line with the
component’s mission. Once the review is completed, the DHS Security Operations
Center performs a risk assessment of the request to determine the level of risk to the
DHS network and decides whether access should be granted.

Components may also request access to social media websites through a waiver or
exception process. A waiver (valid for a specific timeframe) or exception (valid for an
indefinite amount of time) is a request to bypass standard DHS security guidelines and
policies, such as obtaining access to websites that are normally blocked. This process
requires the approval of the component Chief Information Security Officer (CISO) and
the DHS CISO. The Department had processed four exceptions and waivers as of 2012.
Specifically, the Federal Emergency Management Agency (FEMA) was given waivers in
2010 and 2011 and applied for an additional waiver in 2012 to use social media to meet
its mission requirements. U.S. Customs and Border Protection (CBP) was granted an
exception for access to a specific website in 2009.

13
   FISMA, Title III, E-Government Act of 2002, Pub. L. 107-347, December 17, 2002, 44 U.S.C. § 3541, et
seq.
14
   NIST, Recommended Security Controls for Federal Information Systems and Organizations, Special
Publication 800-53, Revision 3, August 2009.
15
   Secure Internet Gateway Process V1.0, OIT DDC, December 4, 2012.


www.oig.dhs.gov                                     6                                          OIG-13-115
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Since 2007, the Department has been granting social media access on a case-by-case
basis to support various public affairs or operational missions. Specifically, DHS uses
social media to provide additional sources of communications to reach a wider
audience, support operational activities such as investigations, and maintain situational
awareness. The following describes these three categories of social media use.

•      Communications comprises external communications, which include messaging,
       outreach, and public dialogue; and internal communications, which include the
       dissemination of key policy, procedural, and operational information to
       employees.

•      Operational use includes the use of social media to collect information for the
       purpose of investigating an individual in a criminal, civil, or administrative
       context; making a benefit determination about a person; making a personnel
       determination about a Department employee; making a suitability
       determination about a prospective employee; or other official departmental
       purposes that has the potential to affect the rights, privileges, or benefits of an
       individual.

•      Situational awareness includes information gathered from a variety of sources
       that, when communicated to emergency managers and decision makers, can
       form the basis for incident management decision making.




www.oig.dhs.gov                              7                                    OIG-13-115
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Results of Audit
DHS Uses Social Media Effectively for Public Outreach

       Social media sites are a critical tool for DHS and its components to engage the
       public in DHS mission efforts, evidenced by a wide DHS presence on commonly
       used social media websites. The Department and components’ public affairs
       offices have determined that the use of social media sites is more effective than
       static websites alone for external communications and public outreach. These
       efforts were effectively managed by Department and component level public
       affairs officials who had ample guidelines and procedures in place to ensure that
       employees follow protocol.

       DHS Shares Information with the Public

       Social media sites have become an important method for DHS and its
       components to conduct outreach and share information with stakeholders. DHS
       began its first blog in 2007 to make information and services widely available,
       while promoting transparency and accountability. DHS components, such as U.S.
       Coast Guard (USCG) and FEMA, also began using social media websites as early
       as 2007 to communicate their mission accomplishments and provide informative
       tips to the public. Component public affairs officials told us that the use of social
       media has been steadily increasing since that time. As of November 2012, at
       least 395 employees had access to social media websites at DHS headquarters
       alone; and all seven operational components had established accounts on at
       least one of the most commonly used social media sites — Twitter, Facebook,
       blog sites, or YouTube — as shown in figure 2.




www.oig.dhs.gov                              8                                    OIG-13-115
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                    CBP      FEMA       ICE      TSA      USCG     USCIS     USSS




                             Blog      Blog     Blog      Blog     Blog




        Figure 2. Most Commonly Used Social Media Tools for Public Outreach16

        DHS and component public affairs offices have used social media tools to
        augment external communications and public outreach efforts. Representatives
        from the Department and component public affairs offices said that social media
        tools are more effective in generating awareness of DHS’ missions and
        achievements than static websites alone, helping DHS reach a wider audience.
        Officials also told us that the use of these tools provides a more formal process
        for measuring public interest through ongoing comments and interaction that
        was not possible before. Specifically, counting Facebook likes, YouTube views,
        comments posted and “retweets” can indicate how widely a particular posting is
        received.17 For example, as of December 2012, USCG had more than 165,000
        users following its Facebook page, and FEMA had more than 186,000 Twitter
        followers. The U.S. Citizenship and Immigration Services (USCIS) Office of
        Communications added a video of a mock citizenship interview and test to
        YouTube in November 2010, and the video had more than 522,000 views as of
        December 2012.

        The Department has also reported on the importance of using social media to
        augment DHS’ emergency management communications. In testimony before
        the Senate Committee on Homeland Security and Governmental Affairs in May
        2011, the FEMA Administrator said that social media is extremely valuable
        during disaster and emergency situations for its capabilities to collaborate with


16
   These icons represent the most common social media accounts used by CBP, FEMA, U.S. Immigration

and Customs Enforcement (ICE), Transportation Security Administration (TSA), USCG, USCIS, and U.S. 

Secret Service (USSS). DHS OIG does not endorse any non-governmental websites, enterprises, or 

services. 

17
   The Facebook "like" button is a feature that allows users to show their support for specific comments,

pictures, wall posts, statuses, or fan pages.



www.oig.dhs.gov                                      9                                          OIG-13-115
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        individuals, communities, and emergency response stakeholders.18 FEMA
        officials also reported that social media tools, such as Facebook and Twitter, are
        critical before disaster situations to provide preparedness information, as well as
        during and after disaster events to provide emergency management tips and
        specific instructions for victims. For example, following Hurricane Sandy in
        October 2012, FEM!’s Office of External !ffairs posted information on its
        Facebook site about new disaster recovery centers in the New York City area for
        residents to apply for assistance, charge cellular phones, and obtain food and
        water. The post also included an interactive link for a disaster recovery center
        locator. FEMA’s Office of External !ffairs has used Twitter since 2008, along with
        the FEMA blog since 2010, to communicate with the public and provide
        assistance to disaster survivors.19

        Likewise, the USCG OPA has used Twitter and The Coast Guard Compass, the
        USCG blog, to provide the public with updates after disasters.20 Fourteen Twitter
        accounts have been established across the USG’s district offices to provide
        information specific to local events. For example, a blog post in November 2012
        outlined actions that that USCG had taken in response to Hurricane Sandy, such
        as efforts to restore fuel flow to the New York City area. The blog post also
        noted that prior to Hurricane Sandy, USCG worked to prepare Eastern seaboard
        ports to minimize disruption and emphasized USG’s commitment to restore the
        marine transportation system in the ports of New York and New Jersey. This
        blog post was shared 361 times.

        Component public affairs employees frequently use Twitter, Facebook, and blogs
        to post time-sensitive information or specific news and current events. For
        example, the TSA Office of Strategic Communications and Public Affairs
        maintains a TSA Blog, which provides seasonal tips to help travelers deal with
        holiday-related issues, such as how to travel with food or how wrapped gifts may
        be subject to inspections.21 Component officials also respond to questions
        frequently posted to blogs or Facebook sites. For example, the USCIS Office of
        Communications uses its blog, The Beacon, to address inaccurate information
        posted on immigration forums or prevent common mistakes made by




18
   U.S. Senate, Subcommittee on Disaster Recovery and Intergovernmental Affairs, Understanding the

Power of Social Media as a Communication Tool in the Aftermath of Disasters (Statement of Craig Fugate,

Administrator, FEMA), 112th Cong., 1st sess., May 5, 2011.

19
   http://www.fema.gov/blog

20
   The Coast Guard Compass, http://coastguard.dodlive.mil/

21
   The TSA Blog, http://blog.tsa.gov/



www.oig.dhs.gov                                   10                                         OIG-13-115
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


        applicants.22 A post on May 17, 2012, discussing the green card process,
        provided details about the decision process and timeline for applications.

        DHS Established Guidelines To Administer Social Media Use For Public
        Outreach

        Department and component level public affairs officials effectively managed
        external communications and outreach efforts, respectively. DHS OPA, OCIO,
        and the Privacy Office provide Department-wide guidance for using social media
        for external communications. Specifically, the DHS OPA authorizes new social
        media accounts for the Department, in coordination with component public
        affairs offices, and negotiates terms of service for each social media site in
        coordination with the DHS Office of General Counsel. OPA also serves as the
        final authority over content acceptable for posting on social media sites when
        necessary and ensures that posted content meets the appropriate requirements
        for publicly available information and materials. The DHS CISO provides
        guidelines for rules of conduct as well as standards for social media accounts.
        For example, according to Attachment X of DHS 4300A Sensitive Systems
        Handbook, official accounts must be branded with the Department or
        component seal and use easily identifiable account user names that indicate that
        the user is representing DHS. 23 This handbook also includes tips to prevent
        employees from endorsing political parties or sharing classified information.
        Finally, the DHS Privacy Office requires component offices and programs to
        conduct a Privacy Threshold Analysis (PTA) for the use of third-party websites to
        assess whether PII is collected, stored, and managed. If the PTA results in a
        decision that a Privacy Impact Assessment (PIA) is required, the DHS Privacy
        Office works with the program to determine the privacy risks and mitigation of
        the use of the third-party website.

        To comply with DHS privacy policies, OPA completed a PIA in 2010 to analyze the
        privacy risks associated with the Department’s social media interactions. This
        PIA, Use of Social Networking Interactions and Applications
        Communication/Outreach/Public Dialogue, covered each of the Department’s
        approved uses of social media for communications and public outreach. 24 A
        second PIA, Use of Unidirectional Social Media Applications Communications and
        Outreach, was completed in March 2011 for the use of unidirectional social
        media tools and applications that allow users to view real-time content from a



22
   The Beacon, http://blog.uscis.gov/

23
   Department of Homeland Security, 4300A Sensitive Systems Handbook Attachment X Social Media, 

Version 9.1, July 24, 2012.

24
   This PIA currently covers 32 approved social networking applications.



www.oig.dhs.gov                                  11                                       OIG-13-115
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        predetermined source. 25 These two PIAs describe the Department’s use of social
        media from a privacy standpoint.

        Additionally, each of the seven operational components had established
        component level guidance and procedures for public affairs employees using
        social media for external communications. Specifically, six of the seven
        components had documented protocol for posting content, at least four
        components had documented privacy or comment policies, and at least four
        components had instituted specific guidance for employee use of social media
        for communications. For example, according to FEM!’s December 2010 Web 2.0
        policy, the FEMA Office of External Affairs has oversight of all external
        communications on FEM!’s publicly accessible sites. The P OPA provided
        guidance, such as standard operating procedures to field employees, stating that
        officials in the field must first receive approval before posting content. CBP also
        issued a policy in 2012 explaining that social media posting is at the discretion of
        the CBP OPA.


DHS Recognizes Value in Using Social Media To Enhance Mission Operations, But
Additional Oversight and Guidance Are Needed

        The Department and its operational components have used social media tools to
        gain situational awareness and support mission operations, including law
        enforcement and intelligence-gathering efforts. Although social media sites
        have been beneficial for these activities, components did not have adequate
        guidelines or policies to prevent unauthorized or inappropriate uses of the
        technologies by employees. Recent efforts to establish privacy guidelines for
        operational uses of social media are progressing. However, additional
        component level policies and procedures are needed.

        Social Media Tools Prove Useful for Increasing Situational Awareness

        The Department recognizes that social media sites are a valuable resource for
        maintaining timely, accurate, and actionable situational awareness of potential
        and actual incidents that may require a response. DHS officials told us that the
        Department benefits from the speed and early warning that come with
        monitoring social media in conjunction with traditional media. For example, the
        DHS National Operations Center (NOC) is the primary watch center for
        situational awareness and is responsible for providing a common operating

25
 Unidirectional social media tools include mobile apps, podcasts, audio and video streams, short
message service (SMS) texting, and really simple syndication (RSS) feeds, among others.


www.oig.dhs.gov                                   12                                         OIG-13-115
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        picture and maintaining communications and coordination to prevent terrorist
        attacks and manage incidents. To do this, NOC personnel monitor media to
        discover and track incidents that may affect homeland security by using search
        terms to find items of potential interest across various websites and, starting in
        2010, social media sites.26 For example, in 2012, NOC staff monitored Twitter for
        updates on a police search for a man with a gun on the University of Maryland
        Baltimore County campus. NOC staff also monitored the Twitter accounts of
        multiple news organizations in 2012 to obtain information on a suspicious letter
        sent to the Speaker of the U.S. House of Representatives. With this type of real-
        time information, staff can provide notification and guidance on safety measures
        and other actions that should be taken.

        Social media has also enabled FEMA Watch Centers to develop more timely
        situational awareness to communicate information to emergency managers and
        government officials and improve incident management decision making.
        FEM!’s National Watch enter uses social media websites as an additional
        resource to maintain situational awareness of incidents that may require a
        coordinated Federal response. Watch Center personnel told us that they
        conduct searches to identify potential incidents that may predicate a
        coordinated Federal response. For example, the National Watch Center
        monitors social media during a storm to follow its progression and see how
        closely it matches the forecast and news reports. FEMA Watch Center staff also
        use this information to confirm the locations where weather events, such as
        tornado touchdowns, actually occurred.

        Social Media Technologies Support Additional Mission Operations

        Some component program offices have increased the use of social media in law
        enforcement and intelligence-gathering activities to support DHS’ mission. Using
        social media technologies, DHS personnel can interact with the public and gain
        access to additional information. Specifically, DHS law enforcement officials can
        use social media to gather information about suspects in criminal investigations.
        For example, ICE officials used social media to research a suspect during a child
        abuse investigation. Photos posted in the suspect’s account revealed a license
        plate number and address, which enabled ICE to make a quick arrest. ICE
        officials told us that using social media for law enforcement purposes enables
        ICE employees to obtain information that is not always available through other
        means, such as law enforcement databases.


26
 The DHS National Operations Center is in compliance with DHS privacy policies for the use of social
media for monitoring and situational awareness.


www.oig.dhs.gov                                    13                                         OIG-13-115
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           DHS component program offices also use social media for intelligence-gathering
           activities to mitigate threats or formulate incident responses. For example, CBP
           border patrol agents review publicly accessible information from social media
           sites to gain awareness of potential situations at the border and to alert agents
           of safety concerns. Similarly, the TSA Office of Intelligence gathers information
           from several social media sites, including LinkedIn, YouTube, and others, to
           mitigate threats to the transportation sector, formulate incident responses, and
           meet situational awareness requirements.27

           USSS officials told us that they are able to gain information through social media
           to help prevent potential incidents. Specifically, USSS uses social media to
           identify potential threats to protectees and protected events. For example, at
           the Republican National Convention in August 2012, the USSS learned through
           social media that a particular individual who had threatened to disrupt the event
           was in the area and relayed relevant information about that individual to the
           Protective Intelligence Coordination Center for further action.

           Insufficient Guidance for Operational Use of Social Media

           Although the Department has seen benefits from using social media to support
           mission operations, some components did not have specific guidelines or
           documented policies to ensure the proper use of these tools for situational
           awareness, law enforcement, or intelligence activities.

           Personnel using social media to support mission operations told us that there
           was a need for additional policies or procedures that address the various
           challenges and questions relating to the use of social media. Component level
           procedures for employees who want to create new social media accounts for
           official purposes, or who are using social media for surveillance and interaction
           with individuals online, had not been developed. This has led to confusion as to
           what legal, privacy, and information security boundaries exist when using social
           media to perform operational tasks. For example, one program office used
           social media sites to monitor the activities of benefit applicants to help detect
           fraud. However, it was determined that the office did not have the proper
           authority to use social media for undercover work, and the use of social media
           was halted within the component.

           Incidents of this nature led to the development of new departmental policies to
           ensure that DHS employees are aware of how social media technologies may be
           used for authorized activities. For example, in June 2012 the Department issued


27
     LinkedIn is a social networking website used for professional purposes.


www.oig.dhs.gov                                       14                           OIG-13-115
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


        Directive 110-01, which established a formal privacy policy specifically for the
        operational use of social media to address access to and collection, use,
        maintenance, retention, disclosure, deletion, and destruction of PII.28 The
        Directive also solidified roles and responsibilities for the Chief Privacy Officer,
        component heads, and component privacy officers, among others.

        At the same time, the Privacy Office released Instruction 110-01-001, Privacy
        Policy for Operational Use of Social Media, to provide guidance for implementing
        Directive 110-01. The Instruction provides detailed definitions and Department-
        wide responsibilities associated with operational use of social media. The
        instruction also provides baseline “rules of behavior” for the operational use of
        social media, such as to use online screen names that indicate an official DHS
        affiliation while performing official tasks. To implement Directive 110-01,
        components were instructed to complete documents that specify the authority
        and purpose for each category of operational use of social media. Components
        were also instructed to establish their own rules of behavior to document
        operational use of social media, including date, site(s) accessed, information
        collected, and how that information was used. Components were instructed to
        develop training for the operational use of social media as well. Components
        were to provide this information to the Privacy Office for approval within 120
        days from the release of the Directive. At the time of our audit, all seven
        component offices were in the process of developing and submitting the
        required documentation to the Privacy Office for approval. However, Privacy
        Office officials stated that stronger enforcement mechanisms are needed to
        ensure that components comply with this new Directive.

        The DHS Office of Policy is drafting a Department-wide social media policy to
        define how social media may be used. At the time of our audit, the policy was
        undergoing internal review with departmental social media stakeholders. When
        implemented, this policy will provide formal roles and responsibilities for the
        Department’s social media stakeholders and leaders as well as a framework for
        official uses of social media to conduct communications, operations, intelligence
        activities, and situational awareness.




28
  DHS Directive 110-01, Privacy Policy for Operational Use of Social Media, June 8, 2012, excludes certain
operational uses of social media for public outreach, situational awareness, and authorized intelligence
activities.


www.oig.dhs.gov                                     15                                         OIG-13-115
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



Improvements Are Needed For Centralized Oversight and Coordination

           Although DHS components used social media to enhance information sharing
           and mission operations, the Department did not have a complete inventory of
           social media accounts, and some component employees had obtained access
           outside of the exception authorization process. In addition, DHS did not have a
           formal mechanism for sharing Department-wide best practices for using social
           media platforms. As a result, Department stakeholders had not yet achieved an
           understanding of how social media could be used more effectively to meet
           mission needs.

           Department-Wide Social Media Usage Is Not Understood

           The Department could not fully account for how social media were being used.
           OMB requires Federal agencies to create a list of the third-party websites being
           used to communicate with the public.29 To comply with this requirement,
           Department officials had attempted to establish a comprehensive inventory.
           OPA had begun to compile a list of official social media websites being used for
           communications and outreach in 2010. This list was organized according to
           social media platforms and listed at least 60 DHS accounts used to communicate
           with the public. However, at the time of our audit it was not clear how often this
           list was updated or who was responsible for updating the list. Similarly, the DHS
           Privacy Office developed a list of social media accounts for public outreach in
           2010 as part of its privacy compliance process. The Privacy Office conducted its
           most recent compliance review in early 2012, which resulted in an inventory of
           32 social media networking websites used for official DHS communications and
           outreach purposes.

           However, the inventories prepared by OPA and the Privacy Office only listed
           social media websites being used for public outreach purposes. The Department
           could not produce a comprehensive, documented inventory for the operational
           uses of social media and what information is being collected by operational
           users. In August 2012 the DHS Privacy Office began an effort to identify and
           document components’ operational uses of social media, as required by
           Instruction 110-01-001. As of November 2012, approximately 20 operational
           uses of social media had been identified across the seven operational
           components. However, these efforts were not completed at the time of our
           audit.


29
     OMB M-10-23, Guidance for Agency Use of Third-Party Websites and Applications, June 25, 2010.


www.oig.dhs.gov                                     16                                       OIG-13-115
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       Attempts to gain awareness of social media use have been hampered by
       employees who accessed websites outside of the standard process. Some DHS
       employees stated that they were not aware of the process to gain access or did
       not know where to go within the Department to request access to social media
       websites. Some employees told us they use nonstandard equipment, such as
       smart phones (e.g., iPhones), stand-alone personal computers, and home
       personal computers to conduct social media activities. For example, employees
       in one component office used their personal smart phones to gain access to
       social media websites to perform job duties.

       Similar challenges exist for DHS to manage social media accounts effectively as
       they are established for new users or social media platforms. Although the DHS
       OPA is responsible for approving new social media accounts, this process was
       not always followed. Because most third-party social media sites require
       minimal information to create an account, component offices with the means to
       access these sites were able to proceed without obtaining authorization from
       DHS OPA. For example, Twitter only requires a person to enter his/her name,
       email address, and a password to create an account. DHS OPA officials told us
       that occasionally, unauthorized accounts are discovered once they are already
       active. OPA officials request that these accounts be removed. However,
       unauthorized accounts are rarely discovered.

       Better Coordination Is Needed To Share Social Media Practices

       Although using social media has proven beneficial, DHS did not have a formal
       mechanism to share best practices for using social media platforms. In 2010,
       DHS OPA established the New Media Compliance Steering Committee to
       increase coordination across headquarters and operating components; to ensure
       that social media tools and initiatives complied with Federal laws, regulations,
       and policies; and to apply standards consistently across the Department. The
       committee included representatives from all stakeholder offices, including the
       Office of General Counsel, Office for Civil Rights and Civil Liberties, Privacy Office,
       OPA, CISO, and Office of Records Management. OPA officials told us that this
       committee was effective in negotiating terms of service for new social media
       accounts and in identifying areas for improvement, such as websites that could
       be used to collect data to measure the success of the Department’s social media
       use. However, the New Media Compliance Steering Committee was no longer
       operational at the time of our audit, and DHS had not established an alternative
       mechanism to coordinate social media efforts.

       Without a committee or formal process to share information, DHS personnel
       cannot easily communicate or make decisions on how to use certain social media


www.oig.dhs.gov                              17                                    OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       platforms. Consequently, components using social media must conduct their
       own research when they want to try a new social media platform. DHS
       personnel in one program office said that they had to research which tool would
       be most effective to reach a community of practice for a system. These
       personnel believed that they could have saved time if a working group were in
       place to coordinate and exchange ideas. Sharing information between the
       components, rather than having each office and component conduct research
       separately, would increase efficiency.

       In addition, without a centralized working group to share Department-wide best
       practices and lessons learned, personnel cannot be sure whether they are using
       the right social media tools or Web 2.0 technologies to their full capacity. Most
       component personnel told us that they reach out informally to other
       components with similar mission needs to learn about the different Web 2.0
       technology options. However, most said that a formal working group would be
       helpful to increase communications and coordination.

       Until the Department improves centralized oversight and coordination of social
       media use, stakeholders will not achieve a consolidated view of how the
       Department is using social media to conduct outreach and to support mission
       operations. Further, insufficient management oversight and coordination
       impedes efforts to institute Department-wide policies, standards, and
       procedures, leaving employees vulnerable to misuse of Internet technologies.
       Likewise, without a consolidated view of social media use, stakeholders cannot
       measure the effectiveness of various social media platforms to reach a wider
       audience or achieve specific DHS mission goals. Finally, the Department cannot
       fully assess the risks and challenges that components face when using certain
       social media sites, making it difficult to identify corrective actions or put
       improvement plans in place. Such actions would ensure that future social media
       technology use is allowed in a more structured and disciplined manner to
       support DHS’ vast mission objectives.




www.oig.dhs.gov                            18                                  OIG-13-115
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



       Recommendations

       We recommend that the—

           1.	 Office of Public Affairs, in coordination with the OCIO, communicate the
               Department’s process for gaining access to social media for employees
               with an approved business need.

           2.	 Office of Public Affairs, in coordination with the DHS Privacy Office,
               develop and maintain a list of approved social media accounts and
               owners throughout the Department.

           3.	 Office of Policy complete the Department-wide social media policy to
               provide legal, privacy, and information security guidelines for approved
               uses of social media.

           4.	 Privacy Office ensure that components develop and implement social
               media policies, as needed.

           5.	 Office of Public Affairs establish a forum for the Department and its
               components to collaborate and make decisions on the use of social media
               tools for public affairs purposes, and that the DHS Privacy Office, in
               coordination with the Office of Operations Coordination and Planning,
               establish a forum for the Department and its components to collaborate
               and make decisions on the use of social media tools for operational
               purposes.


       Management Comments and OIG Analysis

       We obtained written comments on a draft of this report from the Acting Chief
       Privacy Officer for DHS. We have included a copy of the comments in their
       entirety in appendix B.

       In the comments, the Acting Chief Privacy Officer stated that the Department
       has significant concerns regarding the accuracy of the report and the
       recommendations as drafted. Specifically, the Acting Chief Privacy Officer stated
       that the report mischaracterized the Department’s Directive 110-01; did not
       accurately represent the work done to implement the Directive; and portrayed a
       lack of Department-wide guidance regarding the use of social media. The Acting
       Chief Privacy Officer provided comments on specific areas within the report to


www.oig.dhs.gov                             19	                                   OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       address these concerns. We have reviewed the !cting hief Privacy Officer’s
       comments, as well as technical comments submitted under separate cover, and
       made changes to the report as appropriate. However, we disagree with issues
       that the Acting Chief Privacy Officer raised in the response to our draft report.
       The following is an evaluation of the issues raised, as outlined in the
       Department’s comments.

       In the comments, the Acting Chief Privacy Officer had concerns with the “OIG’s
       characterization that components did not have adequate guidelines or policies to
       prevent unauthorized or inappropriate uses of technologies by employees.” The
       Acting Chief Privacy Officer stated that Directive 110-01 and its corresponding
       Instruction 110-01-001 establish a privacy policy for the operational use of social
       media for the Department. Although Directive 110-01 and Instruction 110-01-
       001 provide such Department-wide policy, the requirements of the Directive had
       not been fully implemented.

       The !cting hief Privacy Officer disagreed with the OIG’s conclusion that
       additional component level policies and procedures are needed. The Acting
       Chief Privacy Officer stated that this conclusion minimizes the substantial
       compliance efforts of DHS components since Directive 110-01 was issued. Our
       conclusion is based on the fact that the full implementation of social media
       policies and procedures is not complete. We would note that in his comments,
       the Acting Chief Privacy Officer appears to support this conclusion when he
       writes that the DHS Privacy Office had approved social media documentation for
       “nearly all” components and that “nearly all” components have implemented
       the new training required by the Directive. The term “nearly all” suggests to us
       that more work is needed.

       While Directive 110-01 and Instruction 110-01-001 provide a comprehensive
       privacy policy for operational use of social media, it also requires all DHS
       employees to obtain approval for each category of operational use of social
       media and to complete privacy training. As stated in our report, we determined
       that “some components did not have specific guidelines or documented
       policies.” We also noted in the report that “at the time of our audit, all seven
       component offices were in the process of developing and submitting the
       required documentation to the Privacy Office.”

       Finally, the Acting Chief Privacy Officer emphasized that the DHS Privacy Office
       established standards, through Directive 110-01, for the use of social media that
       incorporate privacy protections and transparency. Specifically, the DHS Privacy
       Office published three Privacy Impact Assessments, as well as five Privacy
       Compliance Reviews. The audit report recognizes these accomplishments by


www.oig.dhs.gov                            20                                   OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       stating that “DHS has established guidelines to administer social media for public
       outreach” and cites the two Privacy Impact !ssessments completed for public
       outreach purposes. The report also recognizes the Privacy Impact Assessment
       and Privacy Compliance Reviews completed for the DHS National Operations
       Center.

       Report Recommendations

       In the comments provided, the Acting Chief Privacy Officer concurred with
       Recommendations 1 and 3 and did not concur with Recommendations 2, 4, and
       5.

       In response to Recommendation 1, the Acting Chief Privacy Officer concurred
       and stated that the Department has established a process for employees with an
       approved business need to obtain access to social media. In response to the
       recommendation, the DHS Office of Public Affairs, in coordination with the DHS
       Chief Information Officer, will make the access process available on the DHS
       Intranet. Further, component level processes for gaining access to social media
       will be added to the DHS Intranet along with links to component Intranet sites.
       Finally, the Office of Public Affairs will revise the social media page on the DHS
       Intranet to reflect all recent updates and guidance for the appropriate use of
       social media across the Department.

       We recognize the plans and efforts made to increase Department-wide
       communications of the process for gaining access to social media since our
       review. We look forward to receiving an update which outlines how the social
       media access process was communicated to all Department employees. OIG
       considers this recommendation Open-Unresolved.

       In response to Recommendation 2, the Acting Chief Privacy Officer did not
       concur with our recommendation to develop and maintain a list of approved
       social media accounts and owners throughout the Department on the basis that
       a list for public affairs purposes already exists. Specifically, the Acting Chief
       Privacy Officer stated that the Office of Public Affairs collects information about
       each account during the application process for social media accounts. Although
       the Office of Public Affairs has begun to compile a list of social media accounts
       and websites used for outreach purposes, we determined that multiple
       inventories had been established by separate offices, with no clear plan for when
       or how the lists would be updated or maintained.

       With regard to the operational use of social media, the Acting Chief Privacy
       Officer stated that maintaining such an inventory would compromise security


www.oig.dhs.gov                            21                                   OIG-13-115
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       and investigative integrity. The Acting Chief Privacy Officer suggests that lists for
       operational use of social media be maintained by business owners within each
       component instead.

       We do not agree with the Acting Chief Privacy Officer on this issue. As stated in
       our report, we recommend the Department develop and maintain a list of
       approved social media accounts and owners throughout the Department. Such a
       list may be established by business owners at the component level, then
       consolidated in a secure manner, as the Department determines appropriate.
       The Department operates a wide-area network that is secure at the sensitive but
       unclassified level, and it provides guidance and tools for components to protect
       their respective databases. Until the Department gains a consolidated view of
       social media use, it cannot measure the effectiveness of specific social media
       platforms to reach a wider audience and achieve various DHS mission goals, or
       ensure that security, privacy, and other risks are being fully addressed. OIG
       considers this recommendation Open-Unresolved.

       In response to Recommendation 3, the Acting Chief Privacy Officer concurred
       with our recommendation to complete the Department-wide social media policy
       to provide legal, privacy, and information security guidelines for approved uses
       of social media, provided that the Department-wide social media Directive is
       consistent with DHS privacy policies and guidance and other existing Department
       policies. The Acting Chief Privacy Officer also mentioned that DHS 4300A
       Sensitive Systems Handbook, Attachment X provides guidance regarding the use
       of social media for public affairs purposes as well as required information
       security guidelines for uses of social media. OIG considers this recommendation
       Open-Unresolved.

       In response to Recommendation 4, the Acting Chief Privacy Officer did not
       concur with our recommendation to ensure that components develop and
       implement social media policies, as needed. The Acting Chief Privacy Officer
       stated that Directive 110-01 and Instruction 110-01-001 provide for
       implementation for operational use of social media. Specifically,
       implementation of the Instruction requires each component to complete
       templates, along with specific rules of behavior and training of employees prior
       to engaging in operational use of social media. The Acting Chief Privacy Officer
       clarified in the comments that the DHS Privacy Office received 16 component
       templates and approved 13 of those templates before our fieldwork ended in
       November, 2012. According to the Acting Chief Privacy Officer, the remaining
       three templates were approved in December 2012.




www.oig.dhs.gov                             22                                    OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       The Acting Chief Privacy Officer stated that by the conclusion of fieldwork in
       November, not all component templates had been reviewed or approved by the
       Privacy Office. During our fieldwork, we determined that some component
       employees using social media for operational purposes expressed a need for
       more Departmental or component level guidance. Other component employees
       with whom we spoke had concerns about the Directive, such as how social
       media was being defined, or that it would impede operational tasks performed
       with social media tools. Further, as the Acting Chief Privacy Officer stated in the
       comments, implementation of Directive 110-01 and Instruction 110-01-001
       includes training employees prior to engaging in operational use of social media.
       However, many component employees with access to social media had not
       heard of the training or had not yet seen the training provided by the Privacy
       Office. None of the employees we spoke with had completed the training
       required by the Directive.

       In our report, we recognize the efforts by several components in responding to
       the requirements of the Directive as well as in developing additional component
       level policies for employees using social media. We also recognize the efforts of
       the DHS Privacy Office for issuing the guidance and coordinating all compliance
       documentation. The Acting Chief Privacy Officer stated that this
       recommendation is unnecessary and creates redundant requirements for
       components. We do not agree with the Acting Chief Privacy Officer. This
       recommendation provides support to the Privacy Office in its efforts to compel
       components to develop and implement component-specific social media
       policies, as required by Directive 110-01. During our audit, DHS management
       reported a need for additional enforcement procedures to ensure that
       components comply with these policies. OIG considers this recommendation
       Open-Unresolved.

       In response to Recommendation 5, the Acting Chief Privacy Officer did not
       concur with our recommendation to establish a forum for the Department and
       its components to collaborate and make decisions on the use of social media
       tools. Specifically, the Acting Chief Privacy Officer stated that the seven
       operational components have vast and diverse responsibilities, priorities, and
       missions, making it difficult to expect component social media will be the same.
       We understand there are different uses of social media across the Department.
       The three categories mentioned in the !cting hief Privacy Officer’s comments
       (communications and outreach, operational use, and situational awareness)
       were described in the Background section and throughout our report.

       Although the Acting Chief Privacy Officer did not concur with this
       recommendation, in the comments, he provides evidence of DHS’ commitment


www.oig.dhs.gov                            23                                   OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       to furthering collaboration for each use of social media. For example, the Acting
       Chief Privacy Officer states in his comments that the Office of Public Affairs will
       continue to work across the components to allow for the sharing of best
       practices on the use of social media in public affairs. The Acting Chief Privacy
       Officer also mentions multiple interactions between Headquarters and individual
       components, as well as existing component level working groups and
       information sharing methods already in place.

       Further, contrary to the !cting hief Privacy Officer’s objection to this
       recommendation, we determined there is support for such a working group.
       Headquarters and component officials told us that a working group on social
       media would be helpful. Additionally, officials told us that a Department-wide
       working group had existed in the past, but disbanded when organizational
       changes took place in the Office of Public Affairs. Employees we spoke with said
       that the working group was beneficial as a method for sharing best practices on
       the use of social media. Such a forum would enable components and
       Headquarters staff to collaborate and enhance social media communication
       across DHS. OIG considers this recommendation Open-Unresolved.




www.oig.dhs.gov                            24                                   OIG-13-115
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Appendix A
Objectives, Scope, and Methodology
The DHS Office of Inspector General (OIG) was established by the Homeland Security Act
of 2002 (Public Law 107-296) by amendment to the Inspector General Act of 1978. This
is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the
Department.

As part of our ongoing responsibilities to assess the efficiency, effectiveness, and
economy of departmental programs and operations, we conducted this audit to
determine the effectiveness of DHS’ and its components’ use of Web 2.0 technologies to
facilitate information sharing and enhance mission operations.

We researched and reviewed Federal laws and executive guidance related to the use of
Web 2.0 technologies. We obtained published reports, documents, and news articles
regarding the use of social media by the Federal Government, OMB, and DHS in
particular. Additionally, we reviewed recent Government Accountability Office (GAO)
reports to identify prior findings and recommendations regarding DHS’ use of Web 2.0
technologies. We used this information to establish a data collection approach that
consisted of focused interviews and documentation analysis to accomplish our audit
objectives.

We held interviews primarily at DHS headquarters. We interviewed more than 15 DHS
headquarters officials from the OCIO, OPA, the Office of Operations Coordination and
Planning, the DHS Office of Policy, and the DHS Privacy Office to discuss their roles and
responsibilities with regard to Web 2.0 technologies, the Department’s use of social
media, and the policies in place. We discussed security concerns and access controls
and processes with the OCIO and OCISO. We met with OPA to learn more about using
social media websites for communication and outreach. We discussed the use of social
media for situational awareness purposes with the Office of Operations Coordination
and Planning. We met with the DHS Office of Policy to learn about upcoming social
media policies. To discuss privacy concerns and new privacy policies regarding the use
of social media, we met with the DHS Privacy Office. We collected supporting
documents about DHS’ use of social media, Department-wide social media policies and
procedures, information on DHS social media committees, and privacy documentation
covering the current uses of social media by DHS operational components.

To assess the effectiveness of the Department’s use of social media, we interviewed
more than 25 officials from DHS’ seven operational components—CBP, FEMA, ICE, TSA,


www.oig.dhs.gov                            25                                   OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


USCIS, USCG, and USSS—to learn how social media were being used, the policies
currently in place, and the accessibility of third-party social media websites. We met
with officials charged with overseeing and using social media at each of the seven
components, including public affairs offices at six of the components, five component
privacy offices, and officials at the OCISO at five components. Major component level
Counsel Offices were also interviewed during the audit. Additionally, we met with
component officials using social media for outreach, situational awareness,
investigations, and intelligence purposes to learn more about the benefits and
challenges of using Web 2.0 technologies.

We conducted audit field work from August to November 2012 at DHS Headquarters
and operational component headquarters in Washington, D.C. We conducted this
performance audit pursuant to the Inspector General Act of 1978, as amended, and
according to the generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based upon our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions, based upon our audit objectives. The principal OIG points of
contact for this audit are Frank Deffer, Assistant Inspector General for Information
Technology Audits, and Richard Harsche, Director of Information Management.
Appendix C identifies major OIG contributors to the audit.




www.oig.dhs.gov                            26                                  OIG-13-115
                  11        .
                            .
                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                                              Pri,acyOnlce
                                                                                              t-~- l)~p• r1m ~nl o r llom ebo nd
                                                                                               tturit)
                                                                                              Woshington, DC 205 28




                                                                                             Homeland
                                                                                             Security
                                                            May 10. 201 3


           MEMORANDUM FOR:                    Frank Dcffcr
                                              Assistant Inspector General
                                              Office of Information Technology Audits

           FROM:                              Jonathan R. Cantor       ~
                                                                  · J. . f.C.ll -                 ~. ~
                                              Acting Chief Pri~cy-e~ ----

           SUBJ ECT:                          Response to Office of Inspector General Draft Report: DHS Uses
                                              Social Media To Enhance Information Sharing and Mission
                                              Operations, But Additional Oversight and Guidance Are Needed -
                                              For Official Use Only (0/G Project No. 12-029-/TA-MGMT)

           Thank you fo r the opportunity to review and provide comments on the subject Draft Report.
           which includes observations and recommendations related to Department of!Jomcland
           Security's (DHS or Department) use of social media fo r a variety of purposes. We appreciate the
           Office of inspector General' s (OIG) work in planning and conducting its review and issuing this
           report. The Department has significan t concerns regarding the accuracy of the subject report and
           Office oflnspector General's (OIG) recommendations as drafted .

           Following a Privacy Office investigation into a Component's operational use of social media in a
           manner inconsistent with OilS pri vacy policy. the Privacy Office developed a draft Department-
           wide policy for operational use of social media. The Department subsequently issued this policy
           as Directi ve 1 10-01, Privacy Policy for Operational Use ofSocial Media (June 8, 2012). The
           Directive is in fuJI effect across the Department. Per this Directive, the DHS Privacy Office is
           the lead on privacy policy for operational use of social media at the Deparunent.

           The Draft Report (I) mischaracterizcs the breadth and applica bility of Directive I I 0-01; (2) fails
           to accurately portray the work done to implement the Directive 1; and (3) despite the existence of
           the Directive, maintains the inaccurate position that there is a lack of Department-wide guidance
           regarding the operational use of social media 2




           ' See specifically Reco mmendation 4: " Ensure that components develop and implement social media policies. as
           needed.''
           2
            See specifically ·'Recommendation 3: ··complete the department-wide social media policy to provide legal.
           privacy, and information security guidelines for approved uses of social media."




www.oig.dhs.gov                                              27                                                             OIG-13-115
                  n             OFFICE OF INSPECTOR GENERAL
                  ~                  Department of Homeland Security




   The l'rivacy Office strongly disagrees with the OJG's characterization that "[c)omponents did
   not have adeq uate guidelines or policies to prevent unauthorized or inappropriate uses of
   technologies by employees" (Draft Report, page 12). Directive II 0-0l and its corresponding
   Instruction I I0-0 1-001 establ ish the privacy policy for operational use of social media by the
   Department. Employing the authorities of the Chief Privacy Officer, Component privacy
   officers, the Office of the General Counsel, and the Chieflnformatlon Officer. Directive 110-01
   and its accompanying Instruction lay out a comprehens ive framework for the protection of
   personall y identifiable information (PJ I) when using social media and appropriate use of social
   media by Department personnel for operational purposes. including fo r situational awareness and
   law enforcement The Instruction requires all DHS employees to comply with the Directive.
   privacy policies and procedures of the Chief Privacy Officer and applicable Component pol icies
   on the operational use of social media. and to protect PIJ fro m unauthorized use or disclosure.

   The Privacy Office disagrees with the OIG' conclusion that while ' ·[r)ecent eJTorts to establish
   privacy guidelines fo r operational uses of social med ia are progressi ng ... additional
   component-level policies and procedures arc needed'" (Draft Report, page 12). This co nclusion
   minimizes the ubstantial compliance efforts ofDHS Components in the ten months since DHS
   issued Directive 110-01. The Privacy Office has received and approved Social Media
   Operational Use Templates ("Templates") and Rules of Behavior, as required by Directive 110-
   0 I , for nearly all Components whose personnel engage in the use of social media for operational
   purposes. With the e xception of the U.S. Secret Service, which was granted an extension of the
   implementation deadline due to the Presidential election and Inauguration activities, nearly all
   operational Components have developed and implemented new training, as required by Di recti ve
    II 0-0 I. The U.S. Secret Service has subsequently completed training of their pers01mel. The
   DI IS Privacy Office continues to work with Components to comply with the Directive and
   implement Component-wide policies.

    The DHS Privacy Office established and enforces standards for the usc of social media that
    incorporate privacy protections and arc tran parent. Directive II 0-01 provides standards fo r
    Components to use social media fo r operational purposes while incorporat ing privacy
    protections. In addition, the DHS Pri vacy Office approved and published three Privacy Impact
    As e sments (PIA) on how the Department uses social media: two for the use of social media fo r
    communications and outreach purposes and one for the use of social media for si tuational
    awareness by th e National Operations Center (NOC). The DHS Privacy Office has conducted
    five Privacy Compliance Reviews (PCR) as follow-ups to the OC PLA; all five PCRs
    concluded that t he OC's use of social med ia was appropriate. Although the Department has
    been transparent regarding its usc of social media, rn ispcrceptions still exist. Issuing a report that
    implies the Department's use o f social media is not within regulatory or policy limits would pose
    significant potential harm to the Department's ability to conduct current and future operations.




                                                                                                         2




www.oig.dhs.gov                                        28                                              OIG-13-115
                           .

                  •       .
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security




       Department Response to Recommendations

       T he Department previously provided techn ical comments and corrections of factual errors to the
       OfG under separate cover. 0 10 recommends that the Deputy Under Secretary for Management
       work with the Office of Public Affai rs, Office of Policy, Privacy Office, and Office of the CIO
       to:

       Recommendation I: Comm unicate Lhe department 's process for gai ning access to social media
       fo r employees with an approved business need.

       Response: C oncur. The Department already has an established process for gaini ng access to
       social media through the Secure Internet Gateway (SlG). DHS employees with an approved
       business need can obtain a SIG request form by contacting DHS IT Support.

       The Office of Public Affairs (OPA), in coordination with the Chief Information Officer (OCJO),
       will make avai lable o n the DHS Intrane t al l applicable detai ls of the SIG process for gaining
       access to social med ia sites for employees w ith an approved busi ness need. OPA recommends
       that ComponentS provide input on how t heir emp loyees can appl y for access, which will be
       incl uded on the DHS Intranet. Additionally, OPA encourages Component internal
       communicators to post links to the social media Intranet page on thei r respect ive Intranet sites,
       along w ith Co mponent-specific information related to social media usc. For example, the U.S.
       Secret Service developed a "Social Media" section on its Intranet, posting all relevant policies
       and directives governing the use of social media by USSS employees for operational and non-
       operati onal purposes.

       To better com municate with employees regarding the appropriate use of social media and
       address this recommendation across the Departme nt, OPA will revise the current social media
       page on the DHS Intranet to reflect any and all recent updates and include additional information
       and guidance, as well as relevant policy documentation. This page currently describes the use of
       social media across the Department, and details the application process for Components,
       programs, and offices that want to establish an official social media presence for public affairs
       purposes. The c urrent Intranet page also houses the list of social media accounts util ized for
       public affairs purposes. Estimated Completion Date (ECD) : October I, 20 13

       Rccommendntion 2: Develop and ma intain a list of approved social media accounts and owners
       throughout the Department.

       Response: Non-Concu r. A list of approved social media accounts for public affairs purposes
       a lready exists. Information about those who maintai n an account for public aflairs purposes
       exists for internal use only. OPA collects this information, including information about the
       account ho lder, the account password. and the intended use of the account, during the application
       proce s as part o f its responsibility to oversee social media activity by Department public affairs
       personnel.

       For other purposes, maintaining su ch informat ion in a Department-wide list compromises
       security and investigative integrity, leading to the potential for a breach of the information.


                                                                                                             3




www.oig.dhs.gov                                       29                                             OIG-13-115
                  11      .
                          .
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security




       In lead, list will be mai ntained by business owners. for example, CBP's draft Directi ve for
       operational use of social media requires the business owner of the system through which social
       media access occurs to maintain an accounting of approved users and purposes.

       Further. the Draft Report references Office of Management and Budget Guidance for Agency
       Use ofThird-Parry Webs ires and Applications (OMB M-10-23). June 25, 20 10; however. the
       guidance does not require Departments to maintain an inventory of operational users of social
       media. lnfom1ation about these accounts. which could include accounts for law enforcement
       purposes, and their imcnded use , must be distributed only to those with a need to know and not
       be compiled in a single, Department-wide list.

       Recommendation 3 : Complete the Department-wide social media policy to provide legal,
       privacy, and infonnation security guidelines for approved uses of social media.

       Response: Concur. l11e Department concurs with this recommendation, provided that the
       Department-wide social media Directive is consistent with DHS privacy polic ies and g uidance,
       Directive 110-0 1, and other existi ng Department policies. The Department will develop social
       media guidance to address the Department's many growing uses of social media to build on and
       e nhance ex isti ng policies. It is important to note that Atlachment X of DHS 4300A provides
       clear and succinct guidance to leverage regarding the use of social media for public affairs
       purposes, a nd required information security guidelines for approved uses of social media. EC D:
       December 20 13

       Recommendation 4: Ensure that components develop and implement social media policies, as
       needed.

       Respo nse: Non-Concur. Di rective 110-01 and its accompanying Instruction provide for
       implementation for categories of operational use of social media. Implementation of the
       Instruction includes the completion of Templates, along with Component-specific Rules of
       Behavior, and Component-based training of employees prior to engaging in the operational use
       of social media. Templates document the current or proposed category of operational use of
       social media; identify the appropriate authorities for the category of use; describe what Pll, if
       any, is collected (and from whom); and describe how the information is used . After ini tial
       Templates are approved, if Components determine to engage in, or contract for, new or modified
       categories of operational use o f social media, the Instruction requires them to complete a new
       Template that includes Rules of Behavior and provides for any necessary train ing before the new
       category of use can be approved. The DHS Privacy Office reviews approved Templates every
       three years for accuracy.

       Templates and draft Rules of Behavior for existi ng categories of operational use of social med ia
       were due to the DHS Privacy Office by October 12, 2012. Prior to the submission deadline, the
       DHS Privacy Office received sixteen completed Templates for review from Components. Of the
       sixteen completed Templates, thirteen were approved by the DHS Privacy Office by November
       7, 2012, and provided to the Office of Inspector General as part of its fieldwork for this Draft
       Report, to demon Irate Component compliance with Directive 11 0-01. The remaining three
       Templates were approved by the DHS Privacy Office in December 20 12.


                                                                                                         4




www.oig.dhs.gov                                      30                                            OIG-13-115
                  11        .
                            .
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


  Directive I I 0-0 I and its accompanying Instruction require Component Privacy Officers and
  Privacy Points of Contact to tailor privacy training for the operational use of social media based
  on Component- pccific needs. The Oi lS Privacy Office provided a baseline training slide deck
  to the Components on July 23, 20 12, fo r further tailoring by Components based on the category
  of operational use o f social media. The Instruction requires Components to complete employee
  training by o ember 26, 2012. The DHS Chief Privacy Officer granted an extension of this
  deadline to the U .S. Secret Service due to the Presidential election and Inauguration and required
  U.S. Secret Service to complete its trdining by March I , 2013. On February 6, 20 13, the U.S.
  Secret Service Privacy Office sent an official message to Assistant Directors of several U.S.
  Secret Service directorates requiring employees whose posi tions may require the use of social
  media for operational purpo es to complete mandatory privacy train ing on the operational use of
  social media.

  Components have been developing social media policies and corrununicating requirements to
  their employees to adhere to Di rective 110-01 since the Directive became effective and even
  before. For example, prior to the issuance of Di rective II 0-0 I, the U.S. Secret Service
  developed several internal directives governing the management of content on social media sites,
  standards of conduct for employees using social media, standards for usc of social media for
  unofficial purposes, and provided guidance on privacy and mitigation issues concerning the use
  of social media on government equipment. In October 2012, the U.S. ecret Service Privacy
  Office sent an official message to all employees and supervisors notifying them of the newly-
  developed U.S. Secret Service privacy policy, wh ich established Rules of Behavior governing
  the use of social media for law enforcement and non-law enforcement purposes.

  The U.S. Coast Guard and U.S. Immigration and Customs Enforcement (ICE) circulated
  memoranda to their respective personnel detailing Rules o f Behavior and responsibilities for
  using social media for operational purposes prior to granting access to the social media after
  Directive 110-0 1 was issued. In response to Directive 110-0 I. Lhe U.S. Customs and Border
  Protection (CBP) Privacy Office drafted an internal Directive for Operational Use of Social
  Media memorializing the process for establishing Rules of Behavior, the method for gaining
  access to social media and the responsi ble parties, and the different levels of operational use of
  social media within CBP.

  The DHS Pri vacy Office continues to receive Templates from Components as additional
  operational uses of social media are identified. To date, the OilS Privacy Office has approved
  three additional Templates for categories o f operational use of social media.

  Given that the Chief Privacy Officer approves Component-specific Templates and Rules of
  Behavior. and given appropriate train ing for the operational use o f social media and the ongoing
  work done by Component Privacy Officers and Privacy Points of Contact to comply with
  Directive I I 0-0 I, this recommendation is unneces ary and creates redundant requirements for
  Component.




                                                                                                        5




www.oig.dhs.gov                                        31                                               OIG-13-115
                  11         .
                             .
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


 R ecommenda tion 5 : Establish a forum for the Department and its components to colla borate
 and make decisions on the use of social media tools.

 Response: Non-Concur . DHS' seven operational Components, w hile serving the DHS mi ssion
 at large, have va t and diverse responsibilitie , priorities, and missio ns. For this reason, it is
 difficult to put seven operational Components under the same umbrella for the use of" Web 2.0"
 technology and to expect that Component uses will be the same across the board. The audit
 attempted to summarize all of the work o f Headquarters and operational Components, which
 includes several law enforcement Components. a d isaster recovery Component, and the
 Component that administers citizenship, into generic "DHS' work.'' As social media are used at
 OHS for three very distinct purposes- public affairs. situational awareness, and operational
 use- a generic forum for a ll social media practitioners fails to recognize the very different
 missions, needs. and operations ofDHS' diverse Components and missions.

 Regarding lhe ituational awareness and operational uses o f ocial media at the Department, this
 report acknowledges that there is not currently a formalized structure for discussions on the use
 of social media. Useful, educationaL and informal communication does take place among
 operational users of social media at the Department, however, the Department remains
 committed to furthering such collaboration.

 C reating a formal entity for social media public affairs practitioners to collaborate may promote
 consistent messaging and current best practices. Due to the Department's diverse and wide-
 ranging mission. however. as well as the ever-changing nature of social media, such an entity
 needs to be dynamic and not limited to in-person communication.

 As the DHS mission is so diverse. it is logical for public affairs professionals to work together to
 ensure a "One DHS'' message. ln fact. public affairs employees from around Headquarters and
 across the operational and support Components constantly work together on both internal and
 external products, includi.ng social media.

 Add itionally, OPA will continue to work across Components to a llow for the sharing of best
 practices on the use of social med ia in public affai rs. Forums for collaboration on social media
 already exist, both internally and government-wide, and the Department wi ll continue to seek
 new opportunities to network and collaborate on best practices.

 As an example, DHS Headquarters public affairs works with cow1terparts at the following
 Components, among others:
     • ICE, to inform the public about successful Homeland Security Investigations on social
        media channels.
     • Federal Emergency Management Agency (FEMA) Headquarters, as well as staff in its 1 0
        regions nationwide, to provide preparedness messaging to the publ ic.
     • U.S. Secret Service, to communicate infonnation about upcoming National Security
        Special Events.

 Many DHS Components are already util izing forum , both fonnal and informal, to collaborate.
 For example, FEMA Headquarters utilizes the SharePoin t tool to collaborate with its digital

                                                                                                       6




www.oig.dhs.gov                                          32                                                OIG-13-115
                  11      .
                          .
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

communications staff located throughout the country in the FEMA Regional Offices, increasing
effi ciency, information sharing, and coordination. U.S. Citi zenship and Immigration ervices
established a Social Media Working Group in May 2012 to develop component-wide policies
related to operational use of social media and compliance with Directive 110-01, as well as to
address evolving policy and issues related to social media use. The CBP Privacy Office' s
monthly compliance meetings with privacy liaisons and the CBP draft Directive on operational
use of social media provide a framework for addressing component requirements and uses
related to social media

Furthermore. formalized tools for social media public affairs professionals currently exist, and
are available to DHS employees at no cost. The General Services Administration (GSA) Center
for Excellence in Digital Government ·'provides government-wide support and solutions that
help agencies deli ve r excellent customer service to the public via web, social media, mobile,
phone, email, print, and newly evolving media. These solutions include training via DigitalGov
Un iversity; standards and best practices via Ilow fo.gov; support to inter-agency communities of
practice such as the Federal Web \1anagcrs Council; access to cost-cutting tools and technology:
and research and ana lytics o n citizen needs and expectations for better service. In addition, the
Center is an accelerator and incubator for government-wide new media and citizen engagement
solutions, making it easier for the government and the public to constructively engage via tools
such as Challenge.gov." Additionally, the GSA-sponso red Social Media Community of Practice
(SM-COP) is a collaborative forum for practitioners from across the government to share
thoughts and ideas.


T hank you for the opportunity to review and comment on this draft report. Please feel free to
contact me if you have any questions. We look forward to working with you in the future.




                                                                                                  7




www.oig.dhs.gov                                     33                                           OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix C
Major Contributors to This Report
Richard Harsche, Division Director
Kristen Bernard, Audit Manager
Craig Adelman, Auditor-in-Charge
Thea Calder, Auditor
Beverly Dale, Referencer
David Bunning, Referencer




www.oig.dhs.gov                          34                    OIG-13-115
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix D
Report Distribution
Department of Homeland Security
Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
DHS Chief Information Officer
DHS Chief Information Security Officer
Director, Office of Operations Coordination and Planning
Acting Chief Privacy Officer
CBP, Commissioner
FEMA, Administrator
ICE, Director
TSA, Administrator
USCG, Admiral
USCIS, Director
USSS, Director
DHS OCIO Liaison
CBP Liaison
FEMA Liaison
ICE Liaison
TSA Liaison
USCG Liaison
USCIS Liaison
USSS Liaison

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Congressional Oversight and Appropriations Committees, as appropriate



www.oig.dhs.gov                           35                            OIG-13-115
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
